     DEPARTMENT OF HEALTH & HUMAN SERVICES                                OFFICE OF INSPECTOR GENERAL


                                                                          Office of Audit Services, Region IV
                                                                          61 Forsyth Street, SW, Suite 3T41
                                                                          Atlanta, GA 30303
December 22, 2011

Report Number: A-04-11-03538

Mr. Victor Lockett
Board of Directors
Board Chair
Mobile Community Action, Inc.
461 Donald Street
Mobile, AL 36617

Dear Mr. Knight:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Costs Mobile Community Action, Inc., Allocated to
Head Start Grant No. 04CH3465. We will forward a copy of this report to the HHS action
official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact John T. Drake, Audit Manager, at (404) 562-7755 or through email at
John.Drake@oig.hhs.gov. Please refer to report number A-04-11-03538 in all correspondence.

                                             Sincerely,



                                             /Lori S. Pilcher/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Victor Lockett


Direct Reply to HHS Action Official:

Mr. Jeffrey Fredericks
Regional Program Manager
Administration for Children and Families
U.S. Department of Health and Human Services
61 Forsyth Street, SW, Suite 4M60
Atlanta, GA 30303
Department of Health and Human Services
            OFFICE OF 

       INSPECTOR GENERAL 





   REVIEW OF COSTS MOBILE

  COMMUNITY ACTION, INC., 

  ALLOCATED TO HEAD START

    GRANT NO. 04CH3465 





                       Daniel R. Levinson

                        Inspector General 


                         December 2011

                         A-04-11-03538 

                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices 



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as 

 questionable, a recommendation for the disallowance of costs 

 incurred or claimed, and any other conclusions and 

 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating 

 divisions will make final determination on these matters.

                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to P.L. No. 110-134, Improving Head Start for School Readiness Act of 2007, Head
Start is a national program that promotes school readiness by enhancing the social and cognitive
development of children through the provision of educational, health, nutritional, social, and
other services to enrolled children and families. Within the U.S. Department of Health and
Human Services, the Administration for Children and Families (ACF) administers Head Start.

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, ACF received $3.15 billion including nearly $354 million to help
improve staff compensation and training, upgrade Head Start centers and classrooms, increase
hours of operation, and enhance transportation services. Also, $356 million was allocated to
award all Head Start grantees a nearly five percent cost-of-living increase and to bolster training
and technical assistance activities.

Mobile Community Action, Inc. (MCA), is a center-based Head Start program. One of the first
child development programs in Mobile, Alabama, MCA has served the communities of Mobile
and Washington Counties since May 1965. MCA serves 1,429 children through the operation of
12 centers and 83 classrooms.

MCA is funded primarily through Federal Government grants. During the period September 1,
2008, through August 31, 2010, ACF provided Head Start grant funds to MCA totaling $17.2
million ($8.3 million for the grant year (GY) 2009 and $8.9 million for GY 2010).

OBJECTIVE

Our objective was to determine whether MCA allocated costs to Head Start in accordance with
Federal Regulations.

SUMMARY OF FINDINGS

MCA did not always allocate costs to Head Start in accordance with Federal regulations.
Specifically, MCA overclaimed indirect costs charged to its Head Start grants by $147,587. In
addition, MCA:

   •   incorrectly reported Head Start expenses and indirect costs on its Federal Financial Status
       Reports (SF-269) for 2009 and 2010,

   •   made employee incentive payments that were not always approved by the Board of
       Directors or were not supported by adequate documentation, and

   •   drew Head Start funds without always documenting the basis for the drawdowns.

These conditions occurred because MCA:

                                                 i
   •   did not have an up-to-date indirect cost rate agreement,

   •   did not adequately review its Federal financial reports (SF-269) prior to submission,

   •   did not follow its policies and procedures for the approval of employee incentive
       payments or did not have policies and procedures that required adequate documentation
       for the payments, and

   •   did not have adequate policies and procedures to ensure that the drawdown of Head Start
       funds was based on actual expenses and the basis for the drawdown was documented.

RECOMMENDATIONS

We recommend that MCA:

   •   refund to Head Start $147,587 in unallowable indirect costs,

   •   submit an Indirect Cost Rate Proposal to the Division of Cost Allocation immediately and
       each forthcoming year within 6 months after the close of its fiscal year,

   •   submit a revised SF-269 for GYs 2009 and 2010,

   •   document the Board of Directors’ approval for all employee incentive payments,

   •   develop and implement policies and procedures that require the submission and
       maintenance of adequate documentation to support employee incentive payments, and

   •   develop and implement adequate policies and procedures to ensure that it bases the
       drawdown of Federal funds on actual expenses and documents the basis for the
       drawdown.

MOBILE COMMUNITY ACTION AGENCY, INC., COMMENTS

In written comments on our draft report, MCA generally agreed with most of our findings and
outlined corrective actions that it had taken or planned to take to address the deficiencies we
noted. However, MCA did not agree with our finding regarding costs it improperly allocated
and reported, and it did not fully respond to our finding regarding employee incentive payments.

Costs Improperly Allocated and Reported

In regard to this finding, MCA said that it was due additional indirect costs because it had not
previously included in its computation of indirect costs claimed the salaries of MCA cafeteria
staff that were charged to Head Start but not reimbursed by the U.S. Department of Agriculture
(USDA) food program. MCA also believed that the results of its indirect cost rate computations,
which it included with its comments, for each of the 3 years ending December 31, 2010, justified
its claim for the indirect costs we questioned.

                                                ii
In further regard to this finding, MCA did not specifically comment on our finding that it
incorrectly reported $163,980 twice—once as an expense and again as part of the unobligated
balance on its SF-269 for grant year 2009.

Employee Incentive Payments

In regard to the portion of this finding that MCA did not provide a justification for paying $3,150
as a one-time incentive payment to an employee whose normal salary was directly funded by
Head Start, MCA said that the incoming Head Start Director received the same percentage as a
top level management employee.

MCA’s comments are included as the Appendix. We are excluding attachments totaling 34
pages because of its volume and because it contained personally identifiable information. We
are providing ACF with MCA’s comments in their entirety.

OFFICE OF INSPECTOR GENERAL RESPONSE

Costs Improperly Allocated and Reported

Although MCA provided documentation that it believed supported its claim for additional
indirect costs, the documentation did not show the extent to which MCA received reimbursement
from USDA for the cafeteria staff’s salaries. Also, MCA’s computation of the $59,150 of
additional indirect costs did not take into consideration that our review covered its grant-report
period of September 1, 2008, to August 31, 2010. MCA also did not indicate when it submitted
for approval its indirect cost rate proposals to the HHS, Division of Cost Allocation. Finally,
MCA did not specifically comment on the $88,437 balance ($147,587 less $59,150) of the
indirect costs we questioned.

Employee Incentive Payments

MCA’s comments indicate that it may have misunderstood our finding regarding incentive
payments. Our finding was that MCA often made incentive payments without providing any
justification for the payments and that it did not always have documentation to show that the
payments were approved by the Board of Directors.

MCA’s comments are included in their entirety as the Appendix. Nothing in MCA’s comments
caused us to change our findings or recommendations.




                                                iii
                                                  TABLE OF CONTENTS

                                                                                                                                  Page

INTRODUCTION....................................................................................................................1

          BACKGROUND ...........................................................................................................1
              Head Start...........................................................................................................1
              Mobile Community Action, Inc. ........................................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY .........................................................1
               Objective ............................................................................................................1
               Scope ..................................................................................................................2
               Methodology ......................................................................................................2

FINDINGS AND RECOMMENDATIONS ..........................................................................3

          FEDERAL REQUIREMENTS ......................................................................................3

          MOBILE COMMUNITY ACTION POLICIES AND PROCEDURES .......................4

          COSTS IMPROPERLY ALLOCATED AND REPORTED ........................................4
               No Indirect Cost Rate Agreement or Adequate Review ....................................5

          EMPLOYEE INCENTIVE PAYMENTS .....................................................................5
              Inadequate Policies and No Supporting Documentation ...................................6

          UNSUPPORTED CASH DRAWS ................................................................................6
              Lack of Cash Draw Procedures and Not Following Documentation
                Procedures .......................................................................................................7

          RECOMMENDATIONS ...............................................................................................7

          MOBILE COMMUNITY ACTION AGENCY, INC., COMMENTS ..........................8
               Costs Improperly Allocated and Reported .........................................................8
               Employee Incentive Payments ...........................................................................8

          OFFICE OF INSPECTOR GENERAL RESPONSE ....................................................8
               Costs Improperly Allocated and Reported .........................................................8
               Employee Incentive Payments ...........................................................................9

OTHER MATTER...................................................................................................................9

APPENDIX

          MOBILE COMMUNITY ACTION AGENCY, INC., COMMENTS

                                                                    iv
                                              INTRODUCTION

BACKGROUND

Head Start

Pursuant to P.L No. 110-134, Improving Head Start for School Readiness Act of 2007, Head
Start is a national program that promotes school readiness by enhancing the social and cognitive
development of children through the provision of educational, health, nutritional, social, and
other services to enrolled children and families. Within the U.S. Department of Health and
Human Services (HHS), the Administration for Children and Families (ACF) administers Head
Start.

Head Start provides grants to local public and private non-profit and for-profit agencies to
provide comprehensive child development services to economically disadvantaged children and
families, with a special focus on helping preschoolers develop the early reading and math skills
needed to be successful in school. Head Start engages parents in their children’s learning and
emphasizes parental involvement in administering local Head Start programs.

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, ACF received $3.15 billion, including nearly $354 million to help
improve staff compensation and training, upgrade Head Start centers and classrooms, increase
hours of operation, and enhance transportation services. Also, the Recovery Act allocated $356
million to award all Head Start grantees a nearly 5 percent cost-of-living increase and to bolster
training and technical assistance activities.

Mobile Community Action, Inc.

Mobile Community Action, Inc. (MCA), is a center-based Head Start program. One of the first
child development programs in Mobile, Alabama, MCA has served the communities of Mobile
and Washington Counties since May 1965. MCA serves 1,429 children through the operation of
12 centers and 83 classrooms.

MCA is funded primarily through Federal Government grants. During the period September 1,
2008, through August 31, 2010, ACF directly provided Head Start grant funds to MCA totaling
$17.2 million ($8.3 million for the grant year 1 (GY) 2009 and $8.9 million for GY 2010).

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether MCA allocated costs to Head Start in accordance with
Federal regulations.



1
    MCA’s grant year covered the period September 1 through August 31.

                                                        1
Scope

We performed this review based on a limited scope request from ACF. Therefore, we did not
perform an overall assessment of MCA’s internal control structure. Instead, we reviewed only
the internal controls that pertained directly to our objective. Our review period covered GYs
2009 and 2010.

We performed our fieldwork at MCA’s administrative office in Prichard, Alabama, during
February and May 2011.

Methodology

To accomplish our objective, we:

    •   reviewed relevant Federal laws, regulations, and guidance;

    •   obtained Federal and local government grant award documentation to determine MCA’s
        funding;

    •   reviewed MCA’s policies and procedures;

    •   interviewed MCA personnel to gain an understanding of MCA’s operations;

    •   reviewed MCA’s financial statements for calendar years 2006, 2007, 2008, and 2009;

    •   reviewed MCA’s revenue and expense accounts and Federal Financial Status Reports
        (SF-269 2);

    •   reviewed MCA’s general ledgers and payroll reports;

    •   obtained and reviewed MCA’s Indirect Cost Rate agreement from the HHS Division of
        Cost Allocation;

    •   reviewed MCA’s Employee Incentives;

    •   reviewed MCA’s indirect Revenue and Expenses Reports; and

    •   provided a summary of our preliminary findings to ACF.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions


2
  Effective February 1, 2011, the Department of Health and Human Services replaced the SF-269 with the SF-425
for expenditure reporting.

                                                       2
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

MCA did not always allocate costs to Head Start in accordance with Federal regulations.
Specifically, MCA overclaimed indirect costs charged to its Head Start grants by $147,587. In
addition, MCA:

   •   incorrectly reported Head Start expenses on its SF-269 for 2009 and 2010,

   •   made employee incentive payments that were not always approved by the Board of
       Directors or were not supported by adequate documentation, and

   •   drew Head Start funds without always documenting the basis for the drawdowns.

These conditions occurred because MCA:

   •   did not have an up-to-date indirect cost rate agreement,

   •   did not adequately review its SF-269s prior to submission,

   •   did not follow its policies and procedures for the approval of employee incentive
       payments or did not have policies and procedures that required adequate documentation
       for the payments, and

   •   did not have adequate policies and procedures to ensure that the drawdown of Head Start
       funds was based on actual expenses and the basis for the drawdown was documented.

FEDERAL REQUIREMENTS

Pursuant to 2 CFR § 230, Appendix A, part C (1) Indirect Costs, indirect costs are those that
have been incurred for common and joint objectives and cannot be readily identified with a
particular final cost objective.

Furthermore, § 230 Appendix A, part E (2)(c), Negotiation and Approval of Rates, states that
organizations that have previously established indirect cost rates must submit a new indirect cost
proposal to the cognizant agency within 6 months after the close of each fiscal year.

In addition, 2 CFR § 215.21(b) (1), Standards for Financial Management Systems, requires
recipients of Federal awards to have accurate, current, and complete disclosure of the financial
results of each federally sponsored project or program. Also, § 215.52(a)(1)(i) requires
recipients to use an SF-269 to report the status of funds for all non-construction projects or
programs from a Federal awarding agency.



                                                3
Furthermore, 2 CFR § 230, Appendix B(8)(j) states that incentive compensation to employees
based on cost reduction, efficient performance, suggestion awards, safety awards, etc. are
allowable if the overall compensation is determined to be reasonable and such costs are paid or
accrued pursuant to an agreement entered into in good faith between the organization and the
employees before the services were rendered or pursuant to an established plan followed by the
organization so consistently as to imply, in effect, an agreement to make such payment.

Pursuant to 45 CFR § 74.21, grantees are required to maintain financial management systems
that provide effective control over and accountability for all funds and maintain accounting
records that are supported by source documentation.

Pursuant to 2 CFR § 215.21(b) (5), recipients are required to have written procedures to
minimize the time elapsing between the transfer of funds to the recipient from the U.S. Treasury
and the issuance or redemption of checks, warrants, or payments by other means for program
purposes by the recipient.

MOBILE COMMUNITY ACTION POLICIES AND PROCEDURES

MCA’s Employment Manual, section 5.3, Compensation Policies, Employee Incentive, states:

       MCA, Inc., in its effort to compensate and retain quality staff proposes the
       following for its management team and support staff if funds are available
       [original emphasis]:

       Members of the management team, both exempt and non-exempt employees, who
       perform above and beyond their scope of work.

       Duties include, but are not limited to members who:
          • Open and close buildings (key holder)
          • Supervises Staff
          • Are on call 24/7
          • Attend Board Meetings

       Other items to be considered:
          • Board and Policy Council Approval
          • Job Performance
          • Longevity (three months minimum)
          • Availability of funds will determine an amount/percentage
          • Funds will be granted at the end of the calendar year

COSTS IMPROPERLY ALLOCATED AND REPORTED

MCA did not properly allocate indirect costs to the Head Start grant and overclaimed indirect
costs on its SF-269 for the 2009 and 2010 grant years. MCA had an approved indirect cost rate
of 10.5 percent during the audit period. Pursuant to its indirect cost rate agreement, MCA should



                                                4
have applied its indirect cost rate to a base that consisted of direct salaries, wages, and fringe
benefits.

For the 2009 grant year, MCA’s indirect cost base, as recorded in its accounting records, was
$5,675,414. Based on this amount, the allowable indirect costs that should have been charged to
the Head Start grant was $595,918 or $77,520 less than MCA claimed on its SF-269 for grant
year 2009. For GY 2010, the indirect cost base as recorded in MCA’s accounting records was
$5,523,173. Based on this amount, the allowable indirect costs that should have been charged to
the Head Start grant was $579,933 or $70,067 less than MCA claimed on its SF-269 for GY
2010.

Additionally, for grant year 2009, MCA reported an unobligated balance of $170,228 in its final
SF-269. However, MCA overreported grant expenditures by $163,980, which caused the
unobligated balance. Thus, MCA incorrectly reported $163,980 twice—once as an expense and
again as part of the unobligated balance.

No Indirect Cost Rate Agreement or Adequate Review

MCA overclaimed indirect costs because it did not have an up-to-date indirect cost rate
agreement, nor did it adequately review its SF-269s prior to submitting them to ACF. MCA’s
current indirect cost rate was approved in January 2007 and was effective from January 1, 2006,
until amended. At the time of our audit fieldwork, MCA had not submitted a new indirect cost
rate proposal. When questioned about the discrepancies between the SF-269 and the accounting
records, MCA agreed that 12 percent was the amount that had been charged to the Head Start
grant for indirect costs. MCA believed that once a new indirect cost rate proposal was
submitted, the new rate would be 12 percent or more. MCA further reasoned that because this
new rate would have been based on 2009 and 2010 actual expenditures, the 12 percent that had
previously been charged to the Head Start grants during 2009 and 2010 would be correct. As a
result, MCA overcharged the Head Start grant by $147,587 for grant years 2009 and 2010.

EMPLOYEE INCENTIVE PAYMENTS

MCA made employee incentive payments from its Indirect Fund that were not always approved
by its Board of Directors or were not supported by adequate documentation. MCA records in an
Indirect Fund the money that it receives from its Head Start, Community Services Block Grant
(CSBG), Low Income Home Energy Assistance Program, and General Fund as reimbursement
for indirect costs. MCA makes salary and fringe benefit payments from this fund to the
administrative personnel approved in its indirect cost rate agreement. MCA also makes
payments from the Indirect Fund for miscellaneous expenses that cannot be specifically
identified to a program.

During the 2 GYs reviewed, we identified five groups of incentive payments to employees
totaling $82,399 that MCA paid from the Indirect Fund. However, MCA’s Board of Directors
approved only one of the payments, and adequate documentation was unavailable to show that
the incentive payment was warranted.



                                                  5
MCA officials offered the following rationale for the five groups of incentives:

    •    MCA paid $25,951 in incentive payments because agency policy allowed for
         management team incentives around November or December of every year if funds were
         available.

    •    MCA paid $22,354 to employees incrementally through the end of the year for the
         additional work they performed on CSBG Recovery-Act-funded projects. MCA did not
         provide any other documentation or explanation to justify the payment.

    •    MCA paid $16,616 to employees for the additional work they performed on Recovery-
         Act-funded projects. MCA did not specify from which Recovery Act projects it
         compensated the employees, nor did MCA have documentation to show what work the
         employees did. These Recovery Act projects are the only group of incentives that
         received Board of Director approval.

    •    MCA paid $14,328 to employees for the additional work they performed on CSBG
         Recovery-Act-funded projects. MCA explained that this amount represented a lump-sum
         amount, retroactive to the beginning of the year. MCA did not provide any other
         documentation or explanation to justify the payment.

    •    MCA paid $3,150 as a one-time payment to an employee whose normal salary was
         directly funded by Head Start. MCA did not provide any other documentation or
         explanation to justify the payment.

For four of the five incentives we identified, MCA had no documentation to support the reasons
for granting them. These incentives were all paid from the Indirect Fund. Because the Indirect
Fund contained money from several sources, both Federal and non-Federal, we were unable to
determine the specific source of funds MCA used to pay these incentives. We were, however,
able to determine that about 82 and 78 percent of the money MCA deposited in its Indirect Fund
in grant years 2009 and 2010, respectively, came from Head Start.

Inadequate Policies and No Supporting Documentation

MCA did not follow its policies and procedures for the approval of employee incentive payments
because it did not receive Board or Policy Council approval for the incentives we identified.
Additionally, MCA did not have policies and procedures that required adequate documentation
for the payments.

UNSUPPORTED CASH DRAWS

MCA could not provide documentation to support selected cash draws from the Department’s
Payment Management System 3 (PMS). We judgmentally selected 15 draws totaling $2,553,092
3
 The Payment Management System is the key system HHS uses for disbursing grant funds. PMS provides Web-
based access to grantees to request grant fund disbursements and transmits those funds electronically to grantees. It
also provides real time account information to grantee and Federal grant awarding agencies.

                                                          6
to trace to supporting documentation. Of this amount, 13 draws totaling $2,423,646 did not have
sufficient documentation to support the amount drawn.

For example, some of the draws’ only supporting documents were bank account reports from
MCA’s general ledger system that indicated that the bank balance was negative. Some of the
draw documentation contained accounts payable reports dated near the time of the draw.
However, we were unable to reconcile the amount of these reports to the amount drawn from
PMS. Specifically, for two draws totaling $527,532, MCA drew Head Start funds to cover
payroll for the same pay period twice and provided no documentation to show that this was
corrected on a future draw. Another draw only had a handwritten note to document that the
amount of $106,003 should be drawn. At the time of our fieldwork, MCA researched this draw
and explained that, at that time, (1) the bank balance had been negative and (2) by adding
together accounts payable reports produced for our review, MCA actually drew less than what
the supporting documentation required.

Lack of Cash Draw Procedures and Not Following Documentation Procedures

Although MCA’s policy manual included a procedure for making electronic fund transfers, it did
not specify a standard procedure for calculating the drawdown amounts based on actual
expenses. Therefore, each time MCA drew money from PMS, it used a different method to
calculate the amount drawn. Furthermore, although MCA’s policy manual required adequate
supporting documents to be maintained for each award, MCA did not consistently follow that
policy. By not having a procedure for calculating drawdown amounts based on actual expenses
and by failing to follow its policy requiring adequate supporting documents to be maintained,
MCA increased the risks of mismanagement of its cash draws and of a material misstatement of
its Federal financial reporting.

RECOMMENDATIONS

We recommend that MCA:

   •   refund to Head Start $147,587 in unallowable indirect costs,

   •   submit an Indirect Cost Rate Proposal to the Division of Cost Allocation immediately and
       each forthcoming year within 6 months after the close of its fiscal year,

   •   submit a revised SF-269 for GYs 2009 and 2010,

   •   document the Board of Directors’ approval for all employee incentive payments,

   •   develop and implement policies and procedures that require the submission and
       maintenance of adequate documentation to support employee incentive payments, and

   •   develop and implement adequate policies and procedures to ensure that it bases the
       drawdown of Federal funds on actual expenses and documents the basis for the
       drawdown.

                                               7
MOBILE COMMUNITY ACTION AGENCY, INC., COMMENTS

In written comments on our draft report, MCA generally agreed with most of our findings and
outlined corrective actions that it had taken or planned to take to address the deficiencies we
noted. However, MCA did not agree with our finding regarding costs it improperly allocated
and reported, and it did not fully respond to our finding regarding employee incentive payments.

Costs Improperly Allocated and Reported

In regard to this finding, MCA said that it was due additional indirect costs because it had not
previously included in its computation of indirect costs claimed the salaries of MCA cafeteria
staff that were charged to Head Start but not reimbursed by the U.S. Department of Agriculture
(USDA) food program. MCA also believed that the results of its indirect cost rate computations,
which it included with its comments, for each of the 3 years ending December 31, 2010, justified
its claim for the indirect costs we questioned.

In further regard to this finding, MCA did not specifically comment on our finding that it
incorrectly reported $163,980 twice—once as an expense and again as part of the unobligated
balance on its SF-269 for grant year 2009.

Employee Incentive Payments

In regard to the portion of this finding that MCA did not provide a justification for paying $3,150
as a one-time incentive payment to an employee whose normal salary was directly funded by
Head Start, MCA said that the incoming Head Start Director received the same percentage as a
top level management employee.

MCA’s comments are included as the Appendix. We are excluding attachments totaling 34
pages because of its volume and because it contained personally identifiable information. We
are providing ACF with MCA’s comments in their entirety.

OFFICE OF INSPECTOR GENERAL RESPONSE

Costs Improperly Allocated and Reported

MCA provided documentation that it believed supported its claim for additional indirect costs,
which included listings of food service employees and their salaries for the 2-year period,
October 1, 2008, through September 30, 2010. MCA’s documentation also showed that it
applied its current 10.5 percent provisional indirect cost rate to these food service employees’
salaries and fringe benefits to arrive at additional indirect costs totaling $59,150.

However, this documentation did not show the extent to which MCA received reimbursement
from USDA for the cafeteria staff’s salaries. Also, MCA’s computation of the $59,150 of
additional indirect costs did not take into consideration that our review covered its grant-report
period of September 1, 2008, to August 31, 2010. MCA included the indirect cost rate
computation for the 3 years ended December 31, 2008, 2009, and 2010 and justified any

                                                 8
additional indirect costs it may have charged to the Head Start grant as allowable based on these
calculated rates.

Even though MCA included schedules showing its indirect cost rate computations for the 3 years
ending December 31, 2008, 2009, and 2010, it did not indicate when or whether it submitted for
approval these indirect cost rate proposals to the HHS, Division of Cost Allocation. MCA
should not claim indirect costs based on rates that have not been approved by the Division of
Cost Allocation.

Finally, MCA did not specifically comment on the $88,437 balance ($147,587 less $59,150) of
the indirect costs we questioned.

Employee Incentive Payments

MCA’s comments indicate that it may have misunderstood our finding regarding incentive
payments. Our finding was that MCA often made incentive payments without providing any
justification for the payments and that it did not always have documentation to show that the
payments were approved by the Board of Directors.

MCA’s comments are included in their entirety as the Appendix. Nothing in MCA’s comments
caused us to change our findings or recommendations.

                                       OTHER MATTER

We noted potential issues with MCA’s claiming and recording of In-Kind contributions and
expenditures. MCA claimed $4,189,385 as In-Kind contributions for grant years 2009 and 2010.
MCA records as In-Kind (1) the cost of donated space, (2) donations, (3) the value of time
donated by volunteers, and (4) the value of home activities performed by volunteers.
Additionally, MCA records the value of (1) Professional Volunteer Services and (2) Professional
Donations. We judgmentally selected 24 items during the audit period and requested the
documentation to support the amounts claimed. With respect to the Professional Volunteer
Services and Professional Donations, MCA maintained documentation to support all 12 items
totaling $226,952. For these two In-Kind categories, documentation included such items as
doctor bills, receipts for book donations, receipts for use of building space donated for meetings,
and a valuation of the Board of Directors’ time spent conducting meetings.

Of the 12 items reviewed in the categories of home activities and time donated by volunteers,
MCA was able to provide documentation to support $108,959 of the $115,079 claimed as In-
Kind. However, MCA could not provide documentation to support $6,119. Examples of support
for these categories included sign-in/sign-out sheets for parents attending parent meetings,
volunteering to read in the classroom, and washing bed linens for the center. Home activity
documentation consisted of monthly sheets showing activities conducted at home with the
children to reinforce the lessons learned at school.




                                                 9
APPENDIX
                                                    Page 1 of 5



APPENDIX: MOBILE COMMUNITY ACTION AGENCY, INC., COMMENTS
Page 2 of 5
Page 3 of 5
Page 4 of 5
Page 5 of 5
